          Office of Audits
          Office of Inspector General
          U.S. General Services Administration




          IMPLEMENTATION REVIEW OF CORRECTIVE ACTION PLAN
          Audit of GSA’s Cost-
          Reimbursement Contracts
          Report Number A120052/Q/A/P12004
          March 30, 2012
          Assignment Number A140028
          September 18, 2014




A140028
                     Office of Audits
                     Office of Inspector General
                     U.S. General Services Administration

DATE:                9/18/2014
TO:                  Thomas Sharpe
                     Commissioner, Federal Acquisition Service (Q)

FROM:                Sharon Humphries
                     Audit Manager, Center for Contract Audits (JA-A)
SUBJECT:             Implementation Review of Corrective Action Plan
                     Audit of GSA’s Cost-Reimbursement Contracts
                     Report Number A120052/Q/A/P12004, March 30, 2012
                     Assignment Number A140028

This report presents the results of our implementation review of the Audit of GSA’s
Cost-Reimbursement Contracts.

We completed an implementation review of the management actions taken in response
to the recommendations contained in the subject audit report (see Appendix A). The
objective of our review was to determine whether the Federal Acquisition Service (FAS)
has taken the corrective actions as outlined in the Action Plan for the Audit of GSA’s
Cost-Reimbursement Contracts. To accomplish our objective we:

   •   Reviewed documentation submitted by FAS supporting accomplishment of the
       Action Plan steps;
   •   Performed testing of the implementation guidance and procedures contained in
       these supporting documents; and
   •   Corresponded with FAS personnel.

Our implementation review found that FAS addressed the audit recommendations in the
corrective action plan, dated May 25, 2012.

If you have any questions regarding this report, please contact me or any member of
the audit team at the following:

       Sharon Humphries          Audit Manager       sharon.humphries@gsaig.gov   (202) 273-7372

       James Gable               Auditor-In-Charge   james.gable@gsaig.gov        (202) 273-7381




A140028                                       1
On behalf of the audit team, I would like to thank you and your staff for your assistance
during this review.

Background

On March 30, 2012, we issued the audit report, Audit of GSA’s Cost-Reimbursement
Contracts to the FAS Commissioner. Section 864 of the Duncan Hunter National
Defense Authorization Act for Fiscal Year 2009 (the Act) effected revisions to the
Federal Acquisition Regulation (FAR), strengthening the guidance regarding the use of
cost-reimbursement contracts. These FAR revisions address: (1) when cost-
reimbursement contracts are appropriate; (2) the type of findings an acquisition plan
must have to support a decision to use cost-reimbursement contracts; and (3) the
assessment of the workforce resources needed to award and administer cost-
reimbursement contracts. The Act also requires the Inspector General of each
executive branch agency review the agency’s use of cost-reimbursement contracts1 for
compliance with these regulations.

On March 16, 2011, the Department of Defense, GSA, and the National Aeronautics
and Space Administration jointly issued interim rule 76 Federal Register 14543 to
address section 864 of the Act. The interim rule provides regulatory guidance on the
proper use and management of cost-reimbursement contracts. The interim rule aligns
with the March 4, 2009, Presidential Memorandum on Government Contracting which
directs agencies to reduce the use of high risk contracts.

On March 2, 2012, the Department of Defense, GSA, and the National Aeronautics and
Space Administration adopted the interim rule as final. The final rule changes went into
effect on April 2, 2012, and are published in the FAR.

The objective of the Audit of GSA’s Cost-Reimbursement Contracts was to determine if
the cost-reimbursement contracts and task orders 2 GSA entered into between March
17, 2011, and September 30, 2011, comply with the provisions of interim rule 76
Federal Register 14543.

Our audit found:

    •   The cost-reimbursement contracts and task orders GSA entered into between
        March 17, 2011, and September 30, 2011, do not fully comply with the provisions
        of interim rule 76 Federal Register 14543.

We recommended that the FAS Commissioner:


1
  The Act applies to cost-reimbursement contracts or orders issued under contracts previously awarded.
See Regulations on the Use of Cost-Reimbursement Contracts, Public Law 110-417, 122 Stat 4549
(2008).
2
  For the purposes of this report, the term task order is a generic term to include task and delivery orders.



A140028                                          2
   1. Reaffirm internal guidance (i.e., Federal Acquisition Service Instructional Letter
      2011-18) and develop additional internal policies to ensure that acquisition
      personnel understand how interim rule 76 Federal Register 14543 and related
      Federal Acquisition Regulation changes affect existing and future contracts and
      task orders.

   2. Incorporate the requirements as a result of interim rule 76 Federal Register
      14543 into existing acquisition plan templates.

The FAS Commissioner agreed with the report recommendations.

Results

The results of our implementation review indicate that FAS has taken appropriate
corrective actions to address the recommendations. We determined that no further
action is necessary to address our recommendations.




A140028                                3
Appendix A – Action Plan for Report Number
A120052/Q/A/P12004




A140028                  A-1
Appendix A – Action Plan for Report Number
A120052/Q/A/P12004 (cont.)




A140028                  A-2
Appendix B – Report Distribution
Commissioner, Federal Acquisition Service (Q)

Deputy Commissioner, Federal Acquisition Service (Q1)

FAS Chief of Staff (Q0A)

Assistant Commissioner (QF)

Director, Center for FEDSIM (QF0B)

Branch Chief, GAO/IG Audit Response Branch (H1C)

Assistant Inspector General for Auditing (JA)

Deputy Assistant Inspector General for Investigations (JID)

Director, Audit Planning, Policy, and Operations Staff (JAO)




A140028                                B-1
